<html>
<title> - [H.A.S.C. No. 113-82] SEAPOWER AND PROJECTION FORCES CAPABILITIES TO SUPPORT THE ASIA-PACIFIC REBALANCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







 
                         [H.A.S.C. No. 113-82] 

                     SEAPOWER AND PROJECTION FORCES

                      CAPABILITIES TO SUPPORT THE

                         ASIA-PACIFIC REBALANCE

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2014



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  _____

                         U.S. GOVERNMENT PRINTING OFFICE 

86-972                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 
202-512-1800, or 866-512-1800 (toff-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7116011e311204020519141d015f121e1c5f">[email&#160;protected]</a>







             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                         Nicholas Rodman, Clerk












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, February 27, 2014, Seapower and Projection Forces 
  Capabilities to Support the Asia-Pacific Rebalance.............     1

Appendix:

Thursday, February 27, 2014......................................    35
                              ----------                              

                      THURSDAY, FEBRUARY 27, 2014
SEAPOWER AND PROJECTION FORCES CAPABILITIES TO SUPPORT THE ASIA-PACIFIC 
                               REBALANCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     2

                               WITNESSES

Berteau, David J., Senior Vice President and Director, National 
  Security Program on Industry and Resources, Center for 
  Strategic and International Studies............................     7
Mahnken, Thomas G., Professor of Strategy, Jerome Levy Chair of 
  Economic Geography and National Security, U.S. Naval War 
  College........................................................     5
Ratner, Ely, Senior Fellow and Deputy Director of the Asia-
  Pacific Security Program, Center for a New American Security...     9
Walsh, ADM Patrick, USN (Ret.), Senior Fellow, Tower Center, 
  Southern Methodist University..................................     3

                                APPENDIX

Prepared Statements:

    Berteau, David J.............................................    59
    Forbes, Hon. J. Randy........................................    39
    Mahnken, Thomas G............................................    49
    Ratner, Ely..................................................    69
    Walsh, ADM Patrick...........................................    41

Documents Submitted for the Record:

    Statement of Jose Andres, CEO, Makai Ocean Engineering, Inc..    85

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    91
    Mr. Langevin.................................................    95

SEAPOWER AND PROJECTION FORCES CAPABILITIES TO SUPPORT THE ASIA-PACIFIC 
                               REBALANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                       Washington, DC, Thursday, February 27, 2014.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I want to welcome all of our Members and our 
distinguished panel of experts to today's hearing focused on 
the military capabilities that will be necessary to support our 
enduring interest in the Asia-Pacific.
    I want to apologize to our witnesses for us being a little 
bit late. We had votes, and that is why we are here. So we 
appreciate your patience with us.
    Today we have testifying before us Admiral Patrick Walsh, 
U.S. Navy retired, and he was the former commander of the 
Pacific Fleet.
    Admiral, thank you for your service and for being here.
    Dr. Thomas Mahnken, professor of strategy at the U.S. Naval 
War College.
    And we certainly appreciate your expertise and your taking 
the time to help us on the committee.
    Dr. David J. Berteau, senior vice president and director of 
the Center for Strategic and International Studies [CSIS] 
National Security Program on Industry and Resources.
    Thank you so much for taking your time to be with us.
    And Dr. Ely Ratner, senior fellow and deputy director of 
the Asia-Pacific Security Program at the Center for a New 
American Security.
    And we welcome all of you. Thank you for sharing your 
unique perspectives on this important topic.
    With the support of my colleague, the ranking member, Mr. 
McIntyre, and the tireless efforts of Ms. Hanabusa and many 
other Members of Congress, we spent the last 4 months 
conducting a bipartisan Asia-Pacific security series to better 
understand our security posture in this critical area.
    Today's hearing will conclude this formal effort, but I 
hope this process will only be the start of a surge in the 
committee's focus and oversight of the shifting security 
dynamics in the Asia-Pacific region and what they will mean for 
our interest.
    To this point we have heard classified and unclassified 
testimony from U.S. Government witnesses on our military 
posture in the region. Today we thought it would be valuable to 
hear a variety of alternative independent perspectives on how 
the United States should fashion its regional military posture 
for the decade ahead.
    While we have maintained a regional military presence in 
Asia over the last 70 years that has successfully limited the 
escalation of conflict, I believe we will need to carefully 
reassess our posture in the years ahead to ensure we can 
continue to achieve our objective of sustaining a peaceful, 
prosperous, and rules-based Asia-Pacific order.
    I believe the military modernization of the People's 
Republic of China [PRC] over these last two decades now stands 
to challenge our traditional regional objectives.
    More specifically, the PRC's investment in ballistic 
missiles, cruise missiles, mines, submarines, fast attack 
ships, antisatellite capabilities, and cyber warfare, among 
others, all appear focused on developing a counterintervention 
strategy that can limit our military's power projection forces.
    I worry that, absent a calculated adjustment by the 
Department of Defense, this modernization effort could 
undermine the military balance and call into question our 
alliance commitments.
    The Pentagon had it right when it called for a 
geographically distributed, operationally resilient, and 
politically sustainable military presence across the Asia-
Pacific region.
    I am now curious what range of options we have and what 
tradeoffs we should be considering for implementing this 
approach. Should we invest more in long-range strike systems 
and less in short-range weapons? Are we too reliant on a small 
number of large bases instead of moving towards a more 
distributed presence? Are we investing in the right type of 
munitions? How do our operational concepts, doctrines, and 
capabilities align with those of our allies? Do we have the 
right mix of capabilities for both maintaining the peace and 
warfighting? And, finally, how will research and development 
investments drive the competition in the next decade?
    I look forward to discussing this important topic with our 
expert panel of witnesses. And, with that, I turn to my good 
friend and colleague, the ranking member of the subcommittee, 
Mike McIntyre.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 39.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you, Mr. Chairman.
    And thanks again to our witnesses for being here and for 
your patience.
    Because of the voting schedule, I will be briefer than I 
had thought I would be. I may save some for questions.
    But as we focus on the rebalance or pivot toward the Asia-
Pacific, having just been there last week myself, I realize we 
are really looking at an arc that is the Indo-Pacific concerns 
as we look through at is occurring throughout the entire area.
    And when we look at the economic usage through the Straits 
of Malacca and the 1.7-mile-wide stretch and we look at not 
only the economic trading, but, also, the energy trading and 
investment and what passes through that area, we realize how 
strategic it is and how important it is and we do have our 
concern about China's action in the South and East China Seas 
and the ramification that has for several of our allies in the 
region.
    Australia, I know, is our closest and strongest ally that 
has been with us in every war that we have fought since they 
have become a nation, going back to 1901. And with the United 
States presence in that area--more than 80 ships, 300 aircraft, 
2 Marine Expeditionary Forces and non-Army brigades stationed 
in the Pacific Command area--this presence certainly is serious 
and demands our attention.
    So I want to thank you all for coming today. We look 
forward to hearing what your ideas are and your options are you 
see for enhancing our military posture in this region and make 
sure that we are effectively working with our allies to make 
sure that there is not a nation trying to dominate that region 
that does not have our interest at heart.
    Thank you, Mr. Chairman.
    Mr. Forbes. Mike, thank you.
    And one of the things, as you begin, to tell you, we want 
to have that dialogue. So feel free to not have to say 
everything in your written statement. We are going to put that 
as part of the record.
    Second thing: Despite the reputation this city has, this 
committee and especially this subcommittee is probably one of 
the most bipartisan subcommittees out here. We all have 
tremendous respect for each other. We work very well together.
    So you may find us asking some questions maybe out of turn 
just to make sure we are elaborating on that, if that were to 
happen. But we want you to have plenty of time to give us your 
answers.
    And with that, Dr. Walsh, we look forward to your 
presentation and ask you, if you can, on your opening remarks, 
to stick as close as you can to around 5 minutes so that we can 
get to those questions.
    Mr. Walsh.

  STATEMENT OF ADM PATRICK WALSH, USN (RET.), SENIOR FELLOW, 
          TOWER CENTER, SOUTHERN METHODIST UNIVERSITY

    Admiral Walsh. Thank you, Mr. Vice Chairman. Thank you as 
well for the invitation to be here today.
    In my written statement, I had attempted to present a 
maritime perspective that offered context. By the very nature 
of it, it is integrative. It looks at not just the military 
order of battle, which I think, through a single lens, would 
take us down a path that lead to conclusions that are often 
erroneous. So you have to put this in its proper context.
    When you walk into the area of responsibility that we call 
the Pacific, an area that is as vast as any that we have ever 
operated as a military, we are talking 100 million square miles 
and 15 time zones. So we have the challenge of the vastness of 
the geography in a world that is very interconnected. It is 
steeped in history.
    Consider what the community of nations looked like in 1946 
as we came out of World War II, 51 countries compared to 194 
today. It is a statement that suggests that we don't really 
understand the role of nationalism, sovereignty, cultural 
identity and how that underpins so much of the tectonic plates 
that move in Asia-Pacific.
    So the area that we are talking about is very vast. And I 
think, when you--when you try and look at the future of 
seapower in a naval strategy, in particular, that represents 
national interests, then it begs for a strategy that looks for, 
``Where can I place resources that can have the potential for 
the most consequence, the most impact?''
    Throughout history, there have been continental strategists 
who have tried to describe where that critical node is on land, 
meaning that, no matter which way you looked on a cardinal 
heading--north, south, east, or west--or which perspective that 
you adopted, whether it is political, economic, military, or 
diplomatic, you could have the greatest impact and influence 
from that region. That was known as the Great Game in Central 
Asia.
    You can pull some of Mackinder's writing and thinking to 
help establish a framework for what matters today. I would 
offer to you that is the South China Sea. Whether it is $5 
trillion of economic activity or 70,000 container ships that 
come through the Straits of Malacca each year, any disruption 
to the security and stability in that region can have potential 
impact in the daily lives, in the quality of lives, of those 
all around us.
    Trying to narrowly define national interest in traditional 
terms will take us down an alley, I think, that will be not 
very--not very revealing or satisfying. The problem that we 
have with--today is that we no longer manufacture end-to-end 
products at home. It is done through a distributed network all 
around the world.
    So that makes it increasingly difficult to define one 
nation's singular national interest inside the South China Sea. 
We all have interests there. So any disruption to that security 
and that stability and that sea line of communication can have 
impact for all of us.
    When we think about some of the complexities of operating 
in that environment, in an area that continues to develop, we 
are seeing the underpinnings of nationalism and the drive for 
resources or resource nationalism. That is the complexity of 
the environment that we are in.
    So whether it is the fight for fish or it is the drive for 
hydrocarbons in the South China Sea, we are seeing the dilemma 
paradigm play out in the economic exclusion zones.
    So my counterparts are faced with the dilemma of whether or 
not they surveil and then enforce their economic exclusion 
zones or run the risk of a direct confrontation by doing so 
with a nation like China. That is the risk that they are 
taking.
    I know of no country in the region that is downsizing its 
Navy. I know of no country in the region that is taking 
reductions in its maritime forces. If anything, for reasons 
that are sometimes a little difficult to understand, more 
nations are acquiring more maritime capability, even maritime 
capability where they have no history of undersea warfare.
    So as six Kilo-class submarines arrive in Vietnam, it begs 
a number of questions in terms of how they are going to manage 
water space, how they are going to deploy those ships, and how 
they are going to use them. What historical concept of 
operations are they going to employ?
    It is just an indicator that the region continues to now 
develop maritime capability. And because we have so much 
history in the region and because we have expended so much 
national treasure generation after generation, it is important 
to understand what is at risk.
    What our forefathers did for us is set up a framework that 
has given us a very prosperous economy that has tentacles that 
reach around the world. With that, in the phrase that you 
described as a rules-based system, is a set of standards and 
understanding and a language of how we operate among nations.
    When you fly to Beijing, you don't require a fighter 
escort. That is because the International Civil Aeronautics 
Organization Chicago treaty of the 1940s gave us a taxonomy, a 
language, a rule system, for how we would operate.
    When you look at the sea, there is a lot of confusion in 
terms of how we look at the Law of the Sea, what role it plays, 
and now you are seeing, most recently, local interpretations 
from China in terms of how to manage and how to look at the 
South China Sea. In a word, they claim the South China Sea.
    I look forward to your questions and the opportunity to 
respond.
    [The prepared statement of Admiral Walsh can be found in 
the Appendix on page 41.]
    Mr. Forbes. Admiral, thank you.
    Professor Mahnken.

 STATEMENT OF THOMAS G. MAHNKEN, PROFESSOR OF STRATEGY, JEROME 
 LEVY CHAIR OF ECONOMIC GEOGRAPHY AND NATIONAL SECURITY, U.S. 
                       NAVAL WAR COLLEGE

    Dr. Mahnken. Thank you.
    Chairman Forbes, Ranking Member McIntyre, thanks for the 
opportunity to speak to you this afternoon. You have my written 
testimony. What I would like to do in the time allotted really 
is to just highlight several things.
    In order to talk about strategy and force posture, I think 
we first need to talk about interests. And I believe the United 
States has a set of enduring interests in the Asia-Pacific 
region, interests that date back, in some cases, a half 
century, in other cases, much longer than that.
    And those interests are really four: First, protecting 
American lives and territory, the most solemn responsibility of 
any government; second, helping to defend our allies in the 
region, our treaty allies in particular, treaties which bear 
the force of law in the United States; third, as Admiral Walsh 
has already alluded to, ensuring the free passage of goods and 
services across the global commons, something that has 
benefited America tremendously, but also benefited the world; 
and then, finally, ensuring a favorable balance of power on the 
Eurasian continent, something that we don't talk much about, 
but I think has been crucially important to us in the past.
    So we need forces that are sufficient to preserve those 
interests across the spectrum of conflict. We need to 
demonstrate U.S. presence, shape the region. And in peacetime, 
we need to dissuade potential competitors, deter potential 
aggressors, reassure our allies, and, should it come to it, be 
able to fight and win.
    Now, it is true that we have strengthened our position in 
the Asia-Pacific region. And that is a process that has gone 
on--been going on for more or less a decade, and it is a 
process that is--long-term process that has enjoyed bipartisan 
support.
    So today we have more forces in the region--more modern 
forces in the region. But this is occurring in a situation 
where not just we are changing, but other actors as well, and 
the military balance in the Asia-Pacific region is changing.
    Chinese military modernization has already been referred 
to. More generally, the modernization of Asian militaries is a 
fact of life. And the net result is that we face greater risk 
to our forces today than we did in the past. There are greater 
questions about our ability to support our allies, and, 
ultimately, there could be threats to our credibility within--
within the region.
    As I see it, there are really three alternatives that I 
will put forward as alternative force postures that we could 
think about.
    The first is sort of a continuation of the status quo, to 
continue doing what we are doing, focused on relatively short-
range assets concentrated in a relatively small number of 
bases, devoting a larger percentage of our--of our capabilities 
to the region, to be sure, but a larger slice of a shrinking 
pie.
    My concern there is that we will face a growing gap between 
our interests and our capability to defend them. Our forces 
will face greater risk, greater vulnerability to our forces, 
and then, ultimately, I think we will face greater strategic 
risk, risk to our credibility, our ability to support our 
interests and pursue our interests.
    A second alternative is to trim our commitments. It is the 
type of thing that is attractive in the abstract, but truly 
easier said than done. And I welcome a discussion on that. One 
variety of this approach would be to pull back, trade 
operational risk, trade the risk to our forces, trade space for 
time.
    My concern with pulling back and focusing more on long-
range platforms, for example, is that we would trade 
operational risk ultimately for strategic risk, that we would 
undermine our alliances and undermine stability in the region.
    So the third alternative would be to try to close the gap 
between our commitments and our ability to meet them. And I 
think there are a number of things that we can do, particularly 
a number of things that we can do in conjunction with our 
allies in the region.
    Greater focus on undersea warfare and greater cooperation 
with our allies in undersea warfare is one. Greater 
collaboration with allies and partners on intelligence, 
surveillance, and reconnaissance, particularly in disputed 
waters such as the South China Sea and the East China Sea. And 
then, third, to diversify and harden our basing structure, to 
make it more resilient, more credible, and diversify both on 
sovereign U.S. territory, but, also, on allied territory.
    These are just a few of my ideas, and I certainly welcome 
the discussion to follow. Thank you very much.
    [The prepared statement of Dr. Mahnken can be found in the 
Appendix on page 49.]
    Mr. Forbes. Dr. Mahnken, thank you for that insight.
    And now, Mr. Berteau, we look forward to your comments.

   STATEMENT OF DAVID J. BERTEAU, SENIOR VICE PRESIDENT AND 
DIRECTOR, NATIONAL SECURITY PROGRAM ON INDUSTRY AND RESOURCES, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Berteau. Thank you, Mr. Chairman.
    I am reminded every time I sit in one of these that I am 
still a little bit of a troglodyte when it comes to electronic 
communications.
    Thank you, Mr. Chairman and Mr. McIntyre, members of the 
subcommittee.
    I am David Berteau from the Center of Strategic and 
International Studies. I should note that we are a bipartisan 
institution that does not take positions on issues and, 
therefore, that the views in my statement and that I am going 
to comment on today are entirely my own, although they are 
formed by our research and our experience and my interactions 
with our colleagues.
    My written statement has a wealth of material, and I won't 
go through it all. I just want to highlight about three things, 
if you will, for our consideration this afternoon.
    First is to go back to the Defense Strategic Guidance, 
January 5th, 2012. That is the basis of both the rebalance to 
Asia that we are talking about today and the broader focus of 
the strategy underlying the reductions under the Budget Control 
Act.
    It essentially said with respect to the rebalance to Asia-
Pacific, number one, its direction to DOD [Department of 
Defense] and to the military, rebalance towards the region, 
emphasize our existing alliances, and expand our networks of 
cooperation with emerging partners, if you will.
    That is the guidance to the Defense Department. And if you 
listen to what Secretary Hagel said earlier this week in laying 
out his summary of what is going to be in the budget next week, 
it appears that that guidance still pertains today. So I think 
it is a very important starting point for our discussions.
    As you know, Mr. Chairman, I had the privilege a year and a 
half ago with Dr. Michael Green of CSIS to do this report on 
the--an independent assessment of force posture strategy for 
the U.S. in the Asia-Pacific region, and we made four 
recommendations there that I think are still relevant today.
    One is to focus on forward presence, including a better 
aligned engagement strategy. The second is to strengthen our 
alliances. The third is to add additional capabilities to U.S. 
forces in the Asia-Pacific region. And the fourth is to examine 
possible force posture and basing efficiencies, including--and 
both of my preceding members of this panel mentioned this--
greater reliance on host nation capability on bases and forces 
and on rotations of U.S. forces. And I think that report and 
its recommendations, in my view, are still viable and relevant 
today as well.
    The third thing I would like to raise during this opening 
comment is: What do you look for next week when you get the 
budget detail? What does this subcommittee focus its attention 
on between now and markup?
    And I think there are two key questions. One, is DOD 
properly planning and resourcing and preparing to carry out the 
rebalance to the extent it can under the authorized and 
appropriated funding? And the second is: Are we maintaining the 
industrial base that we need to support that over the long 
haul? Because it is not just the force posture. It is the 
capability that the industrial base provides us as part of 
that.
    We are going to need to look at the report from the 2014 
Quadrennial Defense Review that will come out pretty much 
simultaneous with the budget, we understand, and presumably the 
soon-to-be-forthcoming National Security Strategy as well. And 
one thing I would particularly look for there is the role of 
our allies and partners as envisioned in those strategy 
documents. How much of this is go it alone? How much of this do 
we want to rely on the region?
    So what would you look for in the fiscal year 2015 budget 
and in the out-years of the Future Year Defense Program, or the 
FYDP? I think there are a couple of things that are going to be 
hard to find in the budget.
    One of the most important, from my view, is the low-end 
shaping and engagement activities in the 30 countries 
throughout the region because, ultimately, it is about those 
countries, the U.S. engagement with them in the context of an 
emerging and growing China, but not necessarily in a bilateral, 
more in a multilateral kind of a framework.
    A lot of those activities aren't budget line items. You are 
going to have to probe to get the information. But I would urge 
you to support that.
    The second is the gaps between the strategy and what is 
funded both in the base budget and in this $26 billion 
Opportunity, Growth, and Security fund that we have heard about 
this week. It already could be acronymized as the OGS, but I 
don't know if that is quite yet appropriate. And I think those 
gaps are an important focus for the subcommittee, if you will.
    The third is support for combined exercises. We have had 
good protection for the PACOM [U.S. Pacific Command] level, but 
I think you also need to look at the component level, the 
PACFLT [U.S. Pacific Fleet], the PACAF [U.S. Pacific Air 
Forces], and the component-level exercises, if you will. That 
is where a lot of that shaping and engagement goes underway. A 
lot of that, again, is not line items in the budget. You will 
have to get some requests in to the Department to get that.
    I think it is critical for this subcommittee to support the 
need for forward presence. I think, with the drawdown in 
Afghanistan, there is a tendency to think we don't need anybody 
overseas. I would agree we don't need new bases overseas, but 
we do need to support and fund expanded overseas engagement and 
deployment, and we need to be explaining that to the American 
people and, frankly, to the rest of the Congress.
    And you mentioned already the need to support investments 
in R&D [research and development] and in critical procurement 
programs like the Virginia-class submarine, et cetera.
    These, I think, are some of the issues that you need to 
look for. And I will be happy to expand on those in the 
questions.
    Mr. Chairman, members of this subcommittee, Mr. McIntyre, I 
am grateful for the opportunity to be here today. I thank you, 
and I await your questions.
    [The prepared statement of Mr. Berteau can be found in the 
Appendix on page 59.]
    Mr. Forbes. Thank you, Mr. Berteau.
    And now Dr. Ratner.

 STATEMENT OF ELY RATNER, SENIOR FELLOW AND DEPUTY DIRECTOR OF 
 THE ASIA-PACIFIC SECURITY PROGRAM, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Dr. Ratner. Mr. Chairman, Ranking Member McIntyre, and 
other distinguished members of the committee, I will thank you 
as well for inviting me here today to discuss the U.S. 
rebalancing to the Asia-Pacific region.
    As I am sure you agree, this is a critically important 
issue for America's economic and security future, and you and 
your subcommittee should be applauded for taking a leadership 
role in helping to clarify and refine U.S. policy in the 
region.
    Our topic today is ``Capabilities to Support the Asia-
Pacific Rebalance,'' and the underlying question here, as I see 
it, is: How can the United States most effectively develop and 
leverage its military power to advance U.S. interests and 
maintain peace and security in Asia?
    The first-order requirement, as the other witnesses 
remarked, of course, is to ensure that the United States 
maintains a robust and geographically distributed military 
presence in Asia while investing in the capabilities necessary 
to meet the challenges of the 21st century. The United States 
can also amplify its military capability by deepening its 
treaty alliances and other security partnerships.
    Today, however, I want to address an additional means 
through which the United States can support its military and 
security interests in Asia, namely, the construction of an open 
and inclusive regional security order undergirded by widely 
accepted rules and institutions.
    In my view, any strategy to enhance U.S. military 
capabilities in Asia must include efforts to shape a rules-
based regional order that strengthens multilateral security 
cooperation while preventing and managing military competition 
and crises.
    And with the balance of my time, let me highlight three of 
the eight recommendations that I put forward in my written 
testimony, and I think these are all areas where the United 
States can act immediately and where Congress can play a 
central role.
    First, Congress should reinstate trade promotion authority 
in support of the Trans-Pacific Partnership [TPP] trade 
agreement. Although it may seem counterintuitive to begin a 
list of national security priorities with a multilateral trade 
deal, the successful completion of the Trans-Pacific 
Partnership both among the negotiators and on Capitol Hill is 
now the single most important policy issue currently affecting 
U.S. power and leadership in Asia.
    Economics and security are inextricably linked in the 
region, and the United States cannot cement a long-term role in 
Asia through military muscle alone. TPP is a strategic-level 
issue and must be treated as such by the U.S. Congress.
    Second, in the context of continued engagement with 
Beijing, the United States needs a more coherent and proactive 
strategy to deter Chinese revisionism in the East and South 
China Seas. Over the past several years, China has engaged in 
economic, diplomatic, and military coercion to revise the 
administrative status quo in East Asia.
    These are deeply destabilizing actions that, if permitted 
to continue, will increase the likelihood of serious conflict 
down the road. Given this pattern of behavior, the White House 
should lead an interagency effort to develop a comprehensive 
response that includes actions to impose costs on China if it 
continues engaging in acts of revisionism.
    As part of this effort, the United States should build an 
international consensus on the legitimacy of international 
arbitration for maritime and sovereignty disputes and be 
unequivocal in rhetoric and action that it does not accept 
China's illegal seizure and occupation of Scarborough Reef in 
the South China Sea.
    The goal here is not to contain China, Mr. Chairman, but, 
rather, to ensure that political disputes are managed through 
peaceful diplomatic means rather than through coercion and the 
use of force.
    Third, despite the U.S. declaratory policy of rebalancing 
to Asia, there continue to be lingering concerns in the region 
about the long-term commitment of the United States, and 
intensification of these perceptions will undermine the 
development of a rules-based order by causing allies and 
partners to question the utility of working more closely with 
the United States while also diminishing U.S. influence in 
regional institutions and potentially encouraging countries to 
engage in acts of aggression or provocation that they otherwise 
would not.
    The U.S. Government should therefore make a concerted 
effort to counter the misperception that the rebalancing to 
Asia is wavering or hollow. This can begin with statements by 
President Obama about the importance of the Asia-Pacific region 
as well as a clear articulation from the Administration about 
the intent, achievements, and future of the rebalancing 
strategy.
    The Administration and Congress can also more clearly 
articulate how defense cuts will and will not affect U.S. 
military posture and presence in Asia, which will be 
particularly important in the wake of the release of the 
Quadrennial Defense Review.
    Mr. Chairman, as the United States thinks about the 
capabilities it needs to maintain peace and security in Asia, 
they must prioritize not just boosting the warfighting 
capability of the United States, its allies, and partners, but, 
also, building a stronger rules-based regional security order.
    Thank you again for this committee's commitment to U.S. 
policy toward Asia, and I look forward to your questions.
    [The prepared statement of Dr. Ratner can be found in the 
Appendix on page 69.]
    Mr. Forbes. Thank you, Dr. Ratner.
    What a great opportunity. We have such an expert panel. We 
have a subcommittee that has an incredible amount of expertise 
on it.
    I am going to defer my questions until the end because I 
want some of our Members to be able to express their thoughts 
and be able to explore their questions.
    So I would like to recognize our ranking member right now, 
Mike McIntyre, for any questions he might have.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And as I mentioned earlier about--and several of you have 
talked about ways to save cost, but, also, to make sure that we 
do have a forward presence and work with our allies more 
closely.
    Mr. Berteau, I believe, if I pronounced your name 
correctly--``Berteau''--page 2 of your testimony--and you 
referred to this orally--the fourth item, four key elements, 
you say, ``Examine possible force structure and basing 
efficiencies, including greater reliance on host-nation bases 
and forces and rotation of U.S. forces,'' and then over on page 
5, you talk about the forward presence and it says it does not 
mean the United States should build new bases overseas, but it 
does mean the U.S. Government needs to support and fund 
expanded overseas deployments.
    In that regard, I know, for instance, as I mentioned in my 
opening comments about Australia, that the blue-water port we 
have that we work with in Australia--that we work with 
Australia's port on the western coast, Perth, Stirling, that 
base.
    Also, I have visited Techport, which is in South Australia, 
which is already built--as they say, built, operating, and 
ready. We have national security clearance of workers already 
there and they are out of range of ballistic missiles from 
North Korea and China.
    Those two ports, for example, I think about in Australia, 
with a very, very strong ally--and then, of course, we have our 
Marines up in Darwin--to me, would seem to be examples of how 
we have someone already there, already an ally, already willing 
to work with us, and they are not coming to us asking for money 
and handouts and, ``Will you come build us bases?'', but, 
rather, they are in place.
    I wonder if you agree with that assessment of our close 
ally, Australia, but also how you see us doing this similarly 
in other countries in the region when you talk about we don't 
need to go build bases, but let's find ways to work with our 
allies who we know have opportunities already in place for us 
to work with and that can save us money, yet strengthen our 
refocus or balance as we look toward the Indo-Pacific region.
    Mr. Berteau. Thank you, sir.
    I do agree with--I do agree with the supposition that we 
have a tremendous opportunity with Australia. As the chairman 
mentioned, they have been our partners and allies for more than 
a century.
    I think it is also instructive to watch the way this has 
been unfolding, the movement of Marines into Darwin and the 
other options that come into place both with airfields at the 
northern side of the country and with ----
    Mr. McIntyre. Yes. I meant to mention the airfields, also. 
Yes, sir. Go ahead.
    Mr. Berteau. And they are moving at sort of a measured 
pace, if you will, not too rushed, not making too big of a step 
at a time.
    I think that both solidifies the relationship with 
Australia, but it also responds to the second part of your 
question.
    It gives a signal and a symbol, if you will, that we are 
not trying to create a huge American presence where it is not 
wanted. We want to move at a measured pace, engage one step at 
a time, and move through that.
    And I think that is particularly key for many of the other 
countries in the regions with whom we don't have, for instance, 
treaty alliances that are already committed to us there.
    The challenge is, in fact, if you are moving at a measured 
pace, not to lose momentum because you really need to maintain 
that momentum. And I think we focus a lot on the individual 
steps, but, also, the collective movement that is going 
forward.
    I think, finally, the Australians offer us an opportunity 
in a multilateral or trilateral engagement in the region where 
it won't necessarily be the U.S. in the lead, but perhaps the 
Australians in the lead in a relationship with a third or 
fourth country, if you will.
    So they offer us all three of those opportunities. We need 
to continue to take full advantage of that.
    Mr. McIntyre. And do you see any other country similarly 
that we can look--when you say about working with our allies or 
other nations that we have a positive relationship with, do you 
see any other countries that we have a relationship with that 
we can move forward that would save us money, yet give us a 
strong presence?
    Mr. Berteau. I think it is fair to say that there is nobody 
else like Australia, and that is a unique relationship in the 
region that we will maintain for a long time.
    But I think there are probably six or eight other countries 
that we are already having discussions and engagements with, 
ranging from our treaty partners, like the Philippines and 
Thailand, to some of the lesser-known opportunities, if you 
will, including--and I would have never thought I would be 
saying this--Vietnam.
    Mr. McIntyre. Okay. Yeah. All right.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thanks, Mike.
    As you know, Congressman Wittman is the chairman of our 
Readiness Subcommittee. And we now recognize him for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to thank our panelists for joining us today. 
Thank you so much. It is a great perspective that you are 
providing.
    Admiral Walsh, I would like to begin with you and to get 
your perspective on where the United States is in building 
those relationships with our partners in the Asia-Pacific.
    Having visited there and talked to the governing officials 
as well as military leaders in those nations, they are, in all 
cases, anxious to develop those relationships. They are doing 
that in the context of a China that continues to be more 
aggressive in the region and pursuing what I call a testing and 
response type of behavior, like the bully on the playground.
    You know, they go up to somebody, kick them in the ankle, 
see what the response is, and then later shove them a little 
bit and see what the response is, and then later shove them to 
the ground and then see what the response is. Our partners 
there become more and more concerned about this aggressive 
behavior with China.
    In that context, tell me, what should we be doing to grow 
our relationships there? How should we be interacting to make 
sure that we provide a strengthened relationship with those 
countries, but, also, one that sends a clear signal to China as 
a deterrent to that particular type of behavior? I wanted to 
get your perspective on that.
    Admiral Walsh. Thank you.
    I think first is an assessment of the laydown current U.S. 
posture in the Pacific. It is a legacy laydown from World War 
II in terms of brick and mortar and operating patterns.
    And I think, for the Department of Defense, when both the 
President and the Secretary of State make in very clear terms 
the strategic value and importance of this body of water that 
we are talking about specifically in the South China Sea, I 
would look for the Department to now adjust its operating 
patterns accordingly.
    So you would look for some sort of operational consequence 
as a result of new guidance that is being issued both at the 
national level and the DOD level.
    For us in particular, what we did is we looked at ASEAN 
[Association of Southeast Asian Nations] in a different way. 
So, for example--and to be a little more granular--this year we 
will have a Rim of the Pacific Exercise [RIMPAC] that occurs 
every 2 years in Hawaii. It is an opportunity to bring ASEAN 
into this as an invited member in ways that we probably have 
never thought about before.
    In my view, sir, there are more doors open to us in this 
line of questioning that you are suggesting than we have ever 
had before. And so how to leverage or capitalize or move 
forward in view of a door that is opened and do we recognize 
it, I think is the key sort of question.
    In my view, we can do something that China cannot do and we 
need to highlight that, and that is lead, lead a multinational 
effort, lead a multinational coalition.
    And in my view again, when China looks at our weapons, they 
can always reverse-engineer that. They can always then 
duplicate it and get their own.
    But when it comes to the relationships with partners, that 
is the strategic power--relative power that we have in the area 
that they do not have.
    And so, to the point raised, yes, in fact, the neighbors in 
the region are getting very concerned. And we are starting to 
push up against constitutional issues inside the Self-Defense 
Force in Japan, for example, because they are not sure exactly 
how they are going to react and respond to these moves that 
China is making.
    It is in our interest to provide the reassurances that we 
can to all of our treaty partners, especially Japan, who is 
going through, I think, a very difficult period trying to 
understand how to react within their existing constitutional 
framework, and do it in a way that is responsive to the 
interests of Japan as well.
    There is opportunities in ways that I think this is an area 
that requires much more development, and I think we can move 
much further forward than we already have.
    Mr. Wittman. Let me ask this in our relationship with 
China.
    How do you see the mil-to-mil relationship with China? 
Where should it go? And what is your view of the manning and 
training and equipping of the PLA [People's Liberation Army] 
Navy?
    Admiral Walsh. To begin with, it took me 2\1/2\ years to 
have a meeting with my Chinese counterpart, Admiral Wu Shengli. 
And, finally, when I had an opportunity to speak with him, 
which was at a regional forum held in Singapore, I mentioned to 
him, ``You know, you need to do more of this.''
    Because I think one of the challenges that the Chinese 
leadership has is understanding how the international 
community, not just the regional community, reacts and responds 
to the rhetoric that comes from PLA leadership.
    From my own point of view, I saw developments taking place 
inside the PLA that put a lot of the Chinese national economy 
at risk in ways that I am not completely sure that the Chinese 
population was aware.
    The idea that we would be ready for a confrontation over 
rocks, reefs, and shoals in the South China Sea and jeopardize 
all this economic framework and prosperity that has existed for 
so many decades seemed to be counterintuitive to me, but it 
underscored a reminder that the Chinese are acting in ways that 
represent a civilization and we tend to look at them as a 
nation-state and we get confused and we often talk past each 
other.
    The dialogue, the importance of having them participate in 
a RIMPAC-like exercise, to me, the value of that comes from 
being able to see us in action with our partners in the region. 
That, to me, is a source of real strength, power, and optimism 
for the future.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you, Rob.
    Mr. Courtney is recognized for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses for your outstanding 
testimony.
    Admiral, you mentioned the sort of proliferation in Vietnam 
of the Kilos that were purchased, and they are not alone in 
that region in terms of spending money in that area.
    And I guess the question is: Is that sort of a symptom of 
people's insecurity about whether or not, you know, the U.S. 
is, you know, sufficiently invested in the pivot, in the--sort 
of an insurance policy, or is it just general high anxiety? And 
just--and how do these sort of unilateral decisions in terms of 
people's, you know, military budgets fit in with your notion of 
U.S. leadership for the region in terms of our allies?
    Admiral Walsh. Sir, I know you are familiar with the town 
hall setting. I attended the town hall meeting in Hanoi with 
the Diplomatic Academy.
    And to a person in the room--and there were close to 100--
they wanted to know what we were going to do about China, which 
I found fascinating to take that kind of question. It is the 
latter of the two proposals.
    I think there is a general anxiety about the emergence of 
China because it is--it has stepped away from its script. For 
many, many years, generations, China was going to hide its 
capability and bide its time.
    In the 2008-2009 timeframe, they got off script. It has a 
lot to do, I think, with the success of the Olympics, the 
success of the Chinese economic model while the world went 
downhill in terms of global economy, and the anniversary of the 
PLA.
    They became very enamored with their own sort of name 
legacy and were ready to change the deck, so to speak, and what 
it did is it put the Chinese in a position where they lost a 
tremendous amount of goodwill at the international level 
because people went from concerned about China to being afraid. 
And then, when the confrontations take place, whether it is 
with Malaysian forces or Philippine forces or Vietnamese 
fishermen, now the region is getting very concerned.
    So to the point about Vietnamese acquisition of the Kilo 
class, they simply don't want to be left behind, and the same 
is true for Indonesia or Singapore or Malaysia when it comes to 
the acquisition of maritime capability.
    How they will use it and how they will employ it and does 
this mean we are on the brink of an arms race, I don't know 
that I would go that far because I simply don't know.
    I get very concerned that there is no other outlet. There 
is no other way to frame this issue, and now we are going to 
resort to arms. And, to me, that is a formula where we have had 
miscalculation in the past.
    And if anyone understands it, it is our country. In 1964, 
when we were conducting DESOTO [DEHAVEN Special Operations off 
TsingtaO] patrols off of Vietnam, I think the last thing we 
thought we were about to do is start a war or be involved in 
something that would start a war.
    It just goes to the ambiguity that exists for commanders at 
sea trying to understand how far ships are away from land, how 
close ships are to each other, their geometry, the 
interpretation of what their actions are.
    The idea of trying to evaluate intent now becomes something 
that is done at the commander level, and all it takes is a 
fire-control radar to go off or an inadvertent sort of action 
by one captain against another and you have something that 
quickly becomes far from local. It becomes state on state.
    Mr. Forbes. Thank you, Mr. Courtney.
    I would now like to recognize my colleague and partner in 
this Asia-Pacific series, Ms. Hanabusa, for 5 minutes.
    Ms. Hanubusa. Thank you, Mr. Chairman.
    Mr. Chairman, I have a written testimony from one of my 
constituents, Jose Andres, from Makai Ocean Engineering, Inc., 
and I would like your permission to have it made part of the 
record.
    Mr. Forbes. Without objection, it will be so admitted.
    [The information referred to can be found in the Appendix 
on page 85.]
    Ms. Hanubusa. Thank you. Thank you, Mr. Chairman.
    Admiral Walsh, I am quite sure that you have now read the 
statement of Secretary of Defense Hagel and what he views as--
how he is going to effect this upcoming budget.
    And one of things that, of course, I found very interesting 
was the fact that he is talking about reducing acquisition 
costs, maximizing resources, and buy and build new ships, but 
it is sort of within just the Navy and Marine Corps budget.
    One of the things that I have always been interested in as 
we look at the pivot to Asia-Pacific is: What is the 
acquisition posture going to look like? Like what is the fleet 
going to look like?
    We all--we have had great numbers. Three hundred six. We 
have had 346 and 347 between Former Secretary Lehman and 
Admiral Roughead. I mean, everyone has these numbers, and no 
one knows how it then breaks down.
    You seem to be testifying that you believe that the 
concentration and the pivot to Asia-Pacific should be towards 
the South China Sea.
    Are you then saying that one of the things that you foresee 
for us to do--as you know, in Singapore, we are looking at the 
LCS [littoral combat ship], but then Secretary of Defense Hagel 
says we are only going to built 32 and that is it.
    So do you take issue with that or do you have any 
positions, since you were PACFLT? What should that fleet look 
like?
    Admiral Walsh. If I may.
    Ms. Hanubusa. Yes.
    Admiral Walsh. This will take just a minute.
    If you were to look at the force that we had in Desert 
Storm across the range of military operations, we used a label 
for that force called ``general purpose forces.''
    In the range of military operations, we would expect to see 
very utilization--a very small utilization of that force in 
counterinsurgency and very small utilization in thermonuclear 
war.
    So it looked like a parabolic graph that said: You know 
what? We could use this one box of Armed Forces and we could 
swing it from one contingency to the next. The language we used 
was ``lesser contingencies.''
    And 9/11 changed that. What 9/11 taught us was that, in 
this area of counterinsurgency, we are going to need to spend 
some time and resources, because the solution--the resource 
solution, the budgetary solution, to solve the 
counterinsurgency problem doesn't exist with the general 
purpose force because we will expend every resource possible 
and we will find dissatisfying results. And as a result, after 
9/11, what this committee and others invested in was more 
investment in counterinsurgency.
    What that programmatic solution looked like was that we 
needed pattern-of-life analysis. We needed to understand the 
impact that individuals were having at the strategic level. We 
needed to find, fix, and finish them, which required the fusion 
of intel and the ability to operate on that intel. That brought 
us LCS. That made sense because LCS fit into the battle force 
or mix of ships.
    So what we are hearing today and what we are seeing today 
with China is the rise of the state actor. And as you try and 
think through the logical sort of outcome, to answer your 
question--because I don't have analysis to give an exact 
number--what you have to keep in mind is the LCS, which was 
designed for one spectrum of warfare, which made sense for 
shallow water in and out of the Philippines, Indonesia, working 
with coalition partners in order to be able to have an impact 
on counterinsurgency and the leaders of it, now we are putting 
that up against a state actor.
    And what the country is just not prepared for is now 
another level of investment for antisubmarine warfare, undersea 
warfare, integrated air and missile defense. I mean, that is 
substantial.
    And, yet, we cannot allow that legacy force to just 
atrophy, because what happens over time is we lose the ability 
to deter. We are in a world that proliferates this kind of 
capability. So whether it comes out of China, shipped to Iran, 
and then modified by Hezbollah, as it was in 2006, we are going 
to have to deal with it.
    And my preference is just deal with the technology rather 
than the flag because the flag complicates it. The technology 
is very real. And if we don't take steps in order to address 
that, then we lose in more ways than we realize.
    So the answer to your question is, when you look at the LCS 
decision and the Secretary's most recent statement associated 
with it, the way I would approach it is: What is the force mix?
    We agreed to LCS when we had cruisers. If we are laying up 
cruisers, now, what is going to be in the Pacific? What is the 
right sort of ratio here with heavy combatants and the ability 
to engage forces in shallow water that LCS brings us?
    I hope that answers your question.
    Ms. Hanubusa. It does. Thank you very much.
    I yield back.
    Mr. Forbes. Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank all of our witnesses today for your very 
insightful testimony.
    And before I begin, I also want to especially recognize and 
welcome Professor Mahnken from the Naval War College in Rhode 
Island. I appreciate the work that you are doing, Professor. It 
is good to have you with us this afternoon.
    If I could--and, Professor Mahnken, if I understood what 
you said correctly--and I agree in your testimony that there 
very likely will be--might--very likely will be a growing gap 
between our interests and our ability to defend them as time 
goes on in the Asia-Pacific.
    And on that point, as we do look to future scenarios in the 
Asia-Pacific region, it is clear that any military action will 
be highly dependent on enabling technology, such as undersea 
strike, directed energy, rail guns, cyber and electronic 
warfare, and spectrum dominance.
    In your views--and each of you can certainly comment on 
this--are we adequately resourcing the research and development 
needed to realize necessary technological advances in these 
fields?
    Dr. Mahnken. Thank you, Congressman Langevin, for that 
question.
    Look, I think, historically, advanced technology and 
research development has provided the United States an 
asymmetric edge and, historically, the U.S. Armed Forces, you 
know, have looked to that asymmetric edge.
    Periodically, that edge comes into question. That certainly 
happened a number of--a number of times in the post-World War 
II era and I think, you know, it is--we are in another era 
where people are looking at the bottom line. They are looking 
at expenditures, and, you know, research and development is an 
easy--is an easy area to trim.
    I personally believe that, you know, in an era like this 
where we are experiencing rapid change in the military balance, 
that we really do need to be investing in advanced 
capabilities. You named a number of them. In a way, we can't 
overinvest in those.
    I think the big challenge will be then taking those--the 
R&D investments and then deciding when and how to weaponize 
them, when and how to bring them into the force posture.
    But unless we are accumulating that deep bench of 
capabilities, we are going to be hard-pressed in the future 
when we need to call upon them to move forward and move them 
out into the fleet. So, in my view, you can't overinvest in 
those.
    Mr. Langevin. Thank you.
    Admiral, you want to make any comment?
    Admiral Walsh. One of the challenges that we have in this 
area is the ability to talk about it. So there is a number of 
investments going on in research and development that actually 
would help the U.S. narrative in the Pacific today, but because 
of the classification levels associated with that funding and 
those specific efforts, it is very difficult to weave that in.
    It is needed. We need to be able to talk about this. We 
need to be able to say, ``You know, I recognize and respect 
that new system that has just come up, but we have a plan for 
that.'' And, yet, we are not able to do it.
    It would be very helpful, very useful, if we could find a 
way to weave that into our story because, as already mentioned, 
the investment that we have already made in areas has been a 
tremendous hedge, and we definitely do not want to lose that.
    Thank you.
    Mr. Langevin. Thank you.
    Anyone else care to add anything? Okay.
    Let me ask this: Are the investments that we are making 
appropriately tied to an overarching strategic vision and 
nimble enough to respond to emerging threats?
    Dr. Mahnken. I think that is an excellent question. And I 
think my answer would be that it is very difficult--it is very 
difficult to know. And here I will put my historian's hat on.
    I mean, if you look at--if you look at the weapons systems, 
you look at the technologies that have proven decisive, say, 
for the United States or, more broadly, throughout our history, 
oftentimes they were developed for different purposes and under 
different circumstances than those in which they were 
ultimately employed. And so that goes back to my previous 
statement of why it is difficult to overinvest in R&D.
    What you are doing is, hopefully, you are placing a whole 
series of bets, some of which will pay out because the 
technology matures, some of which will pay out because of the 
threats we face, but you really are trying to build a portfolio 
of capabilities. And I worry that we are, yeah, that we are not 
building a robust enough portfolio.
    One final comment, if I could--and it was actually brought 
on by Admiral Walsh's comment--which is I think a key 
consideration for us as a country, for the Defense Department, 
as we are developing these advanced technologies is when to 
show them and when to hide them.
    We hide technologies to preserve an operational edge. We 
hide them for various reasons. But we show them, we demonstrate 
them, to send messages and to deter.
    And I think we need a--you know, as we think about R&D and 
we think about new capabilities, we need to have an intelligent 
discussion about when to demonstrate those capabilities and 
when to keep them secret.
    Thank you.
    Mr. Langevin. You know, that is a very good point. And, in 
fact, it calls to mind, during both the Iraq war and even 
Afghanistan, obviously, we revealed many of our capabilities, 
and that certainly was an eye-opener, I know, to many of our 
adversaries and they have subsequently adjusted accordingly and 
refocused their R&D and procurement as well. So point well 
taken.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Mr. Peters is recognized for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    I want to go back to Admiral Walsh to Ms. Hanabusa's 
question because I may be--I may just be slow, but I think that 
you explained the basis for an answer, but didn't really get to 
the answer of what the force should look like and particularly 
the naval force in the Pacific.
    So you explained kind of the LCS issue. But how would it--
what would it look like on a map and in terms of numbers of 
ships, if it played out?
    Admiral Walsh. If I had another dollar, it would go to the 
South China Sea. If I had another ship, I would be very focused 
on the South China Sea in terms of security and stability 
operations.
    Can you do that with an LCS? Yes, to a degree. I mean, you 
can have engagement with Indonesia and Singapore and Malaysia 
and partners in ASEAN.
    But the mixed question is really what I am getting at. You 
can't have LCS at the expense of losing cruisers. You have got 
to have both.
    And the reason I couldn't give her a direct answer on the 
number is because I just don't have the analysis to put that on 
the table. I would be simply guessing.
    But the mixed question is critically important because what 
the cruisers offer to you is representations of real hard 
power. And that message is clear and understood in the region.
    Mr. Peters. Okay, I understand now.
    So--but, geographically, you are talking about the South 
China Sea and that would be the resources deployed?
    Admiral Walsh. Yes. So when you consider where we are--
predominantly on the South Korean Peninsula and in Japan, with 
now growing presence in Australia--to me, the area that is open 
for question and discussion is the operating pattern for 
forward deployed forces that are in and around the South China 
Sea, East China Sea.
    Mr. Peters. Okay. And that is a question that is raised, 
but not answered, by the proposed budget?
    Admiral Walsh. I don't know. I am not familiar enough with 
the budget. Sorry.
    Mr. Peters. Okay. Well, I appreciate that clarification.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you, Mr. Peters.
    Mr. Mahnken, you teach strategy. One of the things we have 
heard over and over again from our allies is that they don't 
know what our current strategy is.
    We have had experts, similar quality to each of you, who 
have sat exactly where you sit and we have asked them the 
question: Could you tell us today what our national defense 
strategy is? Could you articulate it? Could you articulate it 
to our allies? Can you make procurement decisions from it? Each 
of the ones we had said ``no.''
    In your opinion, can you help us with that? Do we have a 
national defense strategy? How does what we have now differ 
from what we have had in the past?
    Dr. Mahnken. Mr. Chairman, thank you for that question.
    I would say--yeah. I am--I am a professor. I am also a 
recovering policymaker. So I have great sympathy for those 
whose job it is to develop strategy. I have been part of this 
sausage-making, and it looks better from a distance, of course.
    Look, I think it is very difficult to develop--for the 
United States to develop a strategy--for the U.S. Government to 
develop a strategy for this region for several reasons.
    One is I think we face across the government very different 
incentives even if we just focus on China for a minute, not 
even the full diversity of the region. Let's just focus on 
China.
    Different parts of the U.S. Government face different 
incentives, have different stakes in our relationship with 
China, some parts much more towards cooperation, other parts 
much more towards competition.
    So trying to--trying to forge a consensus across the U.S. 
Government, even within an administration, is exceedingly--is 
exceedingly difficult.
    Second, we are--you know, we are in an era now where 
strategy documents are public documents. They are meant not 
only to guide action within the U.S. Government, but they are 
public documents that the U.S. public and foreign publics and 
foreign governments consume. Perhaps even foreign publics and 
governments consume them more than do domestic audiences. And 
all of that makes it very difficult to formulate a very clear--
clearly articulated strategy.
    Mr. Forbes. But isn't that exactly what we want to be able 
to do for an industrial base and for our allies, that we have 
clearly defined that strategy so they know where to make their 
investments and where to do procurement positions?
    Dr. Mahnken. Absolutely right. I mean, I agree with you on 
the desirability of it. And it is highly desirable, but I have 
also--you know, I have seen and I have lived through the 
difficulty of actually doing it.
    The four--you know, the four enduring interests that I 
listed in my written testimony and my oral remarks came not 
from any strategy document. They came from, you know, a reading 
of U.S. strategic history.
    And I think they are fairly uncontroversial aims, but you 
won't find them in a strategy document, because it is so 
difficult to state very plainly what our aims are and what our 
strategy is.
    Mr. Forbes. Let me ask you this question. And I like all 
four of you. I respect all four of you. I read what you say. 
You know, I am listening to you.
    My question, though, is this. You teach it.
    Dr. Mahnken. Uh-huh.
    Mr. Forbes. Could you teach the strategy? Do you know--I 
understand it is difficult, but do we have it?
    Dr. Mahnken. I would say that we have a consistent 
historical pattern of behavior in the Asia-Pacific region.
    Mr. Forbes. Is that a strategy?
    Dr. Mahnken. I think--well, I think it certainly falls 
short--you know, for me, you know, I think--when I think back 
to the gold standard of sort of a national strategy, actually, 
I go back to the Reagan administration national security 
strategy and its strategy against the Soviet Union.
    And I go back to that because it was coherent, laid out 
ends, it laid out ways and it laid out means. It also had the 
virtue of being a classified document, which meant that 
people--a small group of people could debate it, work it 
through and then get it signed. It is very difficult for the 
reasons I said to do that today.
    Mr. Forbes. Mr. Berteau and Dr. Ratner, can the two of 
you--I know you are experts and have spent a lot of time doing 
this.
    In terms of our holistic policy and our strategies for our 
agencies, would it be useful for us to have kind of a top-down 
review of the strategies that our agencies would be using in 
the Asia-Pacific area? And does that exist now? Have we done 
that? For both of you, whichever one of you wants to start, can 
you give us your feeling on that.
    Dr. Ratner. Thank you, Mr. Chairman. It is a great 
question.
    I think the first thing that I would say, I think the--you 
know, the Asia team in this Administration I think is quite 
capable, I think is quite sophisticated, and I think they do 
have--in many senses, they do have a series of policies that 
they have knitted together that one would consider a strategy.
    So I think--and there are one--if you look at speeches and 
articles, you could probably knit together a relatively 
consistent story that tells--thinking about the complexities of 
the region, the degree it is changing and putting forward a 
comprehensive multilateral approach to that.
    But I think you are right absolutely that there has not 
been a top-level official description of that. And one of the 
problems of that, you know, as you have described, our allies 
and partners are not always exactly sure what we are trying to 
do.
    Our own bureaucracies, as you state very clearly, are not 
always sure what they are supposed to do. And there have been 
good reports by the Congressional Research Service and others 
looking at the way civilian agencies in the U.S. Government 
have or have not rebalanced to Asia in the way that one could 
argue the Defense Department is very proactively.
    So I very much agree with you not only that it is important 
for our own bureaucracies and allies, but for the broader 
narrative in the region about what the rebalancing is about. 
And without an official U.S. statement, there are lots of 
descriptions of it from our own partners and potential 
adversaries in ways that it is counterproductive to our 
interests.
    So I think what we do need to see is not just a Defense 
Department policy or strategy or a State Department strategy, 
but something that either--either a comprehensive statement by 
the President himself in the form of a speech that everyone can 
point to and say that is the President's policy or an official 
White House document out of the National Security Council or 
elsewhere that is an interagency document and not just a 
singular document out of one of the bureaucracies.
    Mr. Forbes. Mr. Berteau.
    Mr. Berteau. Mr. Chairman, my own background leads me to 
conclude that, left to its own, resources tends to drive 
strategy far more than strategy drives resources. And if you 
really want to know what the priorities are, look at where the 
money is being spent. That is a generic proposition, if you 
will.
    I think, if you go back to that Defense Strategic Guidance 
that was laid out, which was not just the rebalance to Asia, 
but all of the broad elements of counterterrorism and Middle 
East defense and so on, what the Pentagon and the White House 
said at that time is you won't see a whole lot of it in the 
fiscal 2013 budget, which was the budget that was submitted as 
that document was being developed. You really see it in its 
fullness in the fiscal year 2014 budget and the associated 
FYDP.
    Of course, something came along and got in the way of that, 
and that was cuts from the Budget Control Act and the 
implemented sequester for 2013, et cetera. So we have never 
seen the actual laydown of what that document would look like 
translated into resource priorities.
    Ultimately, to me, as a resource and management guy, the 
value of that strategy is in setting priorities and enabling 
the framework for making the tradeoff so that, when you come 
down to that next dollar, as Admiral Walsh said, you know where 
you want to put it.
    And this has been one of the strengths of DOD over the 
decade, is it knows where it needs to put its next dollar, 
should that dollar become available. And I think the ultimate 
test here is not the document itself, but the connection of 
that document to the priorities and the tradeoffs inside there. 
And that--we will see within a week what that looks like for 
the fiscal year 2015 and beyond.
    But, as you know, we are not out of the woods yet. I mean, 
we have about a $140 billion gap between what the Defense 
Department thinks it needs over the next 5 years and what the 
Budget Control Act says they are going to get.
    Admiral Walsh. Mr. Chairman, if I could, just to give you 
the net-net.
    Mr. Forbes. Yes.
    Admiral Walsh. So in view of the comments you have just 
heard, it is hard to imagine anything that would come out of 
the Administration that would try and change the status quo. I 
think the effort is to try and improve the status quo.
    And in 1986, we needed to change the game. In 2014, we are 
trying to hold on to the framework that we laid down. And what 
you are sensing out of the Department is a reaction to some of 
the big movements that are taking place associated with the 
PLAN [People's Liberation Army Navy].
    And, as a result, we are very reactionary. We continue to 
go through the budget bill process without any change of 
strategic direction because we are trying to get to the same 
end state, but we are starting to have difficulty in order to 
maintain that same status quo.
    So it is not a very attractive end state to continue to try 
and promote the status quo, but at the same time it is very 
much in jeopardy when you consider the operating pattern of the 
current forces.
    So, for example, with the 189 ships or so that were in 
Pacific Fleet, a force that was designed for rotation is really 
based on one-third of the force, one-third underway, one-third 
training, one-third in maintenance.
    We were looking at percentages much closer to the mid-40s 
in terms of the total force underway at a given period of time. 
That becomes much more difficult to sustain, whether it is the 
status quo or something more than the status quo.
    I think the effort for whole-of-government approach in 
terms of economic agreements and trade agreements in the region 
is terrific, but what we have learned over time is that certain 
parts of the government have a very clear direct relationship 
with their Chinese counterparts. The Department of Defense does 
not.
    And, as a result, our trade can go up and down, our 
business community can go up and down in terms of their 
relationship with their counterparts in China, and not really 
feel like the whole relationship is threatened. DOD is not 
there yet with their counterparts in the PLA.
    Hope that helps.
    Mr. Forbes. It does.
    Admiral, you also mentioned that China is acting like a 
civilization as opposed to a nation-state, if I understood you.
    Can you just elaborate on that for us just a little bit as 
to what you mean by that.
    Admiral Walsh. Sure.
    If you look at the role that the Chinese Government plays 
inside the lives of individual Chinese citizens, it is 
promoting and advancing the interests of a civilization.
    We tend to look at China as a nation-state and wonder why 
China is acting in the way it is. It does not seem rational to 
us. We come up with our own language of how we want to 
influence China, how we want to shape China.
    China is the only country inside the international system 
where, rhetorically, we were asked the question, ``Who lost 
China?'' If you were to go back to Senate Foreign Relations 
Committee hearings in the 1970s where we brought back the China 
hands from 1948 and 1949, we said, ``What happened?'' We 
thought we understood China. We don't. We didn't.
    The last time we had a chance to seriously influence China 
was after World War I. China had participated. China had 
helped. China wanted something out of Versailles. And what they 
got out of Versailles was that Shandong Province--instead of 
going from Germany back to China, it went to Japan. And so the 
Chinese community shortly after that gives birth to the 
Communist Party, and ever since then we have been confused in 
terms of Chinese motivation and interests.
    China has longstanding interests in China as a 
civilization. China is going to act in a way that advances the 
interest of its civilization. We are playing by one set of 
rules. They are playing by another set of rules.
    We shouldn't be surprised by that, nor should we be 
surprised that, when we react and respond and try and say 
``no,'' that we are going to feel pressure. We shouldn't walk 
away from that and we shouldn't blink.
    Mr. Forbes. Last question I would like to ask to each of 
you, and it is two questions.
    As you know, sometimes we think of the larger conflict that 
could happen in the Asia-Pacific area. In reality, we are 
looking at the potential for these gray zones that I think the 
Japanese call it.
    The question I would ask to you is: What can we do best to 
respond to those types of actions by the Chinese, one?
    And the second thing we are always worried about here, that 
we get mired down so much in today that we sometimes miss the 
game-changers that could be out there that we should be worried 
about.
    What would you tell us that we should be worried about as 
far as the game-changer that could happen that this committee 
should not miss?
    So two things: How we respond to these smaller conflicts 
that are there and, number two, what is it we should be looking 
at that could be that game-changer that we are missing?
    We will start with you, Admiral, and each one have a 
response.
    Admiral Walsh. Sir, I think the answer to the second part 
of the question first is you have got to have surface-to-
surface capability.
    I would be most concerned about the surface fleet. I would 
be most concerned that the investments that we are making with 
regard to the surface fleet--read missiles--and the ability to 
defend ourselves against that type of environment. That, to me, 
is what has changed most dramatically in the last several 
years.
    We built airplanes with attrition in mind. We don't build 
ships that way. So the seaworthiness and the combat-worthiness 
of our vessels in this type of environment, to me, is the 
primary concern and where we could do the most good in terms of 
game-changers because that helps change the narrative.
    And to the point raised earlier about research and 
development, I think there is work that is being done in this 
area that would help assure allies in the region that, yes, in 
fact, we have a common interest, we have a common concern, we 
respect the technology that is coming on board, and we have a 
series of actions and investments that we are making in order 
to counter that, we are not just standing idly by.
    Because what that allows us to do is to take the first 
question that you answered and to be very clear and very 
concise and very, very consistent with it, which is that we 
stand by our allies and friends in the region.
    And so even though we don't want to get drawn into a 
situation where we are trying to arbitrate individual actions, 
we also want our allies and friends to know that we are going 
to be next to them if they start to feel the pressure and the 
coercion that comes from a big neighbor.
    The Philippines have just submitted their concerns to the 
Law of the Sea Commission. In my mind, it would be worthy of 
the committee to take another look at this treaty. This is 
opportunity lost. We are in concert with Iran and Syria in 
terms of how we look at the treaty today. We are on the 
sidelines watching others assert their national interests and 
we are not in the game.
    To me, this is the most consistent complaint that I hear 
from those in the region, which is that we helped write the 
language, that we helped write the language in 1982, that we 
modified--we, the international community, modified the 
language in 1982 when we objected to the redistribution of 
wealth that was going to come out of the seabed.
    In 1994, they brought it forward looking for us to 
participate and to ratify. In 2004, it came out of the Foreign 
Relations Committee unanimous, and we have never been able to 
get an up or down vote on it.
    Hope that answers your question.
    Mr. Forbes. It does.
    Dr. Mahnken.
    Dr. Mahnken. Thank you.
    I think you put your finger on a very important issue in 
highlighting these gray-zone challenges, again, as the Japanese 
term it in their national security strategy, and I think there 
are several things that we can do to react.
    One is we already have a very powerful instrument, the U.S. 
Coast Guard, and I think the Coast Guard provides a very good 
channel for conversations with China and with other regional 
states on these issues. And building up Coast Guards within the 
Asia-Pacific region I think is an important lever for dealing 
with these types of challenges.
    Related to that, you know, the term ``building partner 
capacity'' has had a lot of resonance in the Defense Department 
in recent years, both in the former Administration and the 
current one.
    When we have thought about building partner capacity, 
though, we have tended to think about at the low levels. It has 
tended to be associated with counterinsurgency. I think we need 
to give a lot more thought to building partner capacity against 
higher-end threats.
    And when you start to look at that, you know, what could we 
export to, say, the states in Southeast Asia that would help 
them defend their sovereignty and harden themselves to 
coercion, the answer is there is not--we don't produce as much 
as we might.
    Things like smaller patrol craft, land-based anti-ship 
missiles, they are not in our tool kit. And we might want to 
think about some opportunities to do that, to build the 
capacity of regional states so that, you know, in the future 
maybe Vietnam doesn't go to Russia for Kilos, but maybe there 
are some options from us.
    In terms of game-changers, certainly at the tactical level, 
perhaps developments in directed energy, the rail gun, as 
Congressman Langevin mentioned earlier. If they pay off, I 
think those could be very powerful and could change naval 
warfare.
    Certainly a number of developments in undersea warfare I 
think could prove to be game-changers both in terms of unmanned 
undersea vehicles, but also, submarines and submarine payloads.
    And then, from a tactical all the way up to a political 
military level, I think there are all sorts of opportunities 
now for sharing intelligence, surveillance, reconnaissance 
data--imagery from unmanned aerial vehicles, for example--
broadly sharing that and knitting together our allies and our 
friends and us in some relationships to share data, 
particularly when it comes to these contested areas.
    At one level, I think it is very tactical, but it could be 
a game-changer in terms of building and maintaining a consensus 
in favor of the status quo and against revisionism.
    So those are my thoughts.
    Mr. Forbes. Good.
    Mr. Berteau.
    Mr. Berteau. Mr. Chairman, I would like to actually 
associate myself with the remarks of both Admiral Walsh and Dr. 
Mahnken. I think those are excellent observations, if you will.
    I think, in terms of your first question, one of the 
critical elements that comes into play is not just the U.S. 
bilateral relation with each of the nations there, but the way 
in which we can get them to engage with one another. One way to 
do that, as Tom mentioned, is, in fact, through our own foreign 
military sales.
    I think one of the manifestations of the comments you made 
earlier about what is the strategy and our allies and partners 
asking that, drill that question down one layer. If they come 
to us and say, ``Okay. We have only got so much money. What do 
we need to spend it on?'', we need to be able to have an answer 
to that question.
    And the way in which we do these kinds of things today tend 
to be individual deals of individual systems rather than 
anything that is looked at in a more comprehensive manner, if 
you will.
    And if we did that in such a way that it builds up the 
federated capability across the region rather than just a U.S.-
only or a one-nation-only kind of a capability, I think that 
would add a lot of value.
    The things that I worry about from a game-changer point of 
view--and, actually, yesterday my panel followed you and 
Congressman Smith over at that event across town and I was 
asked this very question, ``What do you wake up at 3 o'clock in 
the morning worried about in this business?''
    One of the vulnerabilities at the low end, and that is 
cybersecurity. I mean, it actually has high-end vulnerability 
as well in an electronic warfare sense, but the real 
vulnerability from across the region is at the low end. The 
other is space, and that is the vulnerability at the high end.
    These are both much harder for us to get our arms around. 
In one case, in the case of cyber, the military alone can't 
defend America or the world. It is going to take the 
cooperation and collaboration of the private sector, the 
nongovernment sector, across the board.
    And for the life of me, I don't understand why the business 
community in America can't see its own vulnerability here and 
get on board with the legislation that would help open and move 
in that direction, but that is obviously beyond the 
jurisdiction of this subcommittee.
    The second at the space end suffers from the difficulties 
that Admiral Walsh was talking about of our general R&D, which 
is it is hard to talk about it; so, it is very hard to fix this 
stuff.
    Ultimately, I think, though, we need to recognize that 
China tends to look at an awful lot of these things in a 
Metternichian kind of way. You are either on my side or you are 
on their side. And for many of the nations in this region, they 
don't want to have to choose. They want to be able to play both 
sides.
    It is in our interest to help them do that in such a way 
that strengthens the overall capacity and capability rather 
than forcing people to line up on one side or another. That is 
hard.
    Mr. Forbes. Good comments.
    Dr. Ratner.
    Dr. Ratner. Great. Thank you, Mr. Chairman.
    I think this issue of gray zones is probably the toughest 
and most important strategic question in U.S. strategy in Asia 
right now. So I think a lot of people are struggling with this.
    I think, if you read Danny Russell's recent testimony 
carefully, clearly the Administration, I think, has come around 
to understanding the importance of some of China's assertive 
actions and the gray-zone contestations that we are seeing.
    I guess, in terms of response, I mean, clearly 
understanding the implications of this and the broader picture 
of China's rise and U.S. leadership in the region as opposed to 
thinking about--you know, people say, ``Well, these are just 
rocks and islands.'' I think they are much more important than 
just that in their overall strategic significance.
    So I laid out a number of things in my written testimony 
that I won't go into detail here. But I would echo Admiral 
Walsh's remarks about needing to support international 
arbitration.
    Even if the Senate--even if we are not going to ratify 
UNCLOS [United Nations Convention on the Law of the Sea], I 
think supporting the current Philippines international 
arbitration in the South China Sea is critically important in 
the process, not necessarily the Philippines' claims.
    I think we need to think about improving confidence-
building measures in other ways to prevent and manage crises. 
Considering the code of conduct in the South China Sea, it is 
unlikely to be completed anytime soon. We should think about 
how we can take some of those mechanisms and advance them 
without the full agreement.
    And I would echo Dr. Mahnken's suggestion about a common 
operating picture in the South China Sea. I think, 
fundamentally, it could be extremely helpful in terms of 
helping countries modify their own behavior as well as setting 
norms that others would be more likely to abide by.
    But I think, at the end of the day, the underlying question 
here is about the willingness of the United States to impose 
costs on China, as I said in my statement.
    And this is not about containment. It is not about a 
fundamental change in U.S.-China policy. It is about looking at 
our decades-long hedging strategy of engagement, on the one 
hand, and balancing, on the other, and deciding whether or not 
we have that mix right.
    And the argument that I have been making and others is that 
we may need to beef up the balancing part of that mix of the 
policy so as not to create a permissive environment for Chinese 
assertiveness in these gray zones. And there are a lot of ways 
we can do that.
    One, we can augment our military presence in the region. 
Senior White House officials raised that possibility in the 
context of ADIZ [Air Defense Identification Zone] in the South 
China Sea. We can think about expanding or more clearly 
defining our security commitments in the region, which are 
sometimes intentionally ambiguous. We can think about 
broadening the type of capabilities we are willing to transfer 
to certain partners.
    We can think about--and this would be incredibly 
sensitive--but, in certain contexts, revisiting our neutrality 
on certain sovereignty issues. We can think about offering 
legal assistance to countries who are interested in 
international arbitration.
    And as a final suggestion, I think one idea that we should 
consider--and it would have to be legal--we have to get into 
sort of legal and operational aspects of this--but I think the 
United States needs to think about, in cooperation with allies 
and partners, treating Chinese maritime vessels--
nongovernmental maritime vessels and paramilitary vessels as 
naval combatants if they are engaging in acts of aggression and 
physical coercion.
    China is clearly using Coast Guard-like vessels for 
essentially military coercion, and I think, as long as we draw 
a red line and say that is nonmilitary action, they are likely 
to do so and keep the U.S. response below the military 
threshold. And I think that only works to China's strategic 
advantage and against the interests of peace and stability.
    Mr. Forbes. Good. Thank you.
    Ms. Hanabusa, do you have a final question you would like 
to pose to the panel?
    Ms. Hanabusa. Thank you.
    Admiral Walsh, when we were discussing it earlier, my other 
question to you would have been--as you know, the Congress, 
primarily the House, has taken a very strong position against 
the retiring of the cruisers.
    So I was very interested in what you were saying because 
the cruisers are scheduled to be retired and, as you know, we 
are going to lose at least possibly two or three at Pearl 
[Harbor].
    And so, from what you are saying--and that is what I 
expected you to say, that we need a mix, and the mix will be 
determined by where we are. So the South China Sea, I 
understand you.
    You seem to be saying that, for the general picture of the 
whole of PACOM AOR [area of responsibility], we are going to 
need more than just that. That is for that particular area. But 
if the player that we are all looking at is China, then we need 
the subs, we need the carriers, we need everything else.
    Am I understanding you correctly?
    Admiral Walsh. Yes. What I am suggesting to you is a line 
of questioning as the budget is revealed in terms of how to 
approach it.
    And if the going-in concern is battle force mix, then it 
prompts now the conversation of, ``Okay. How many? And what is 
the analysis of how many LCS and how many cruisers? And the 
decision associated with retiring or laying up cruisers, is 
that based on budget or is that based on changing scenarios in 
the Pacific that, in my mind, are playing out?''
    We have to make adjustments with the budgetary plan because 
of changes that are taking place in the political and military 
environment in the Pacific.
    So it was more of just sort of helping with the playbook 
when it comes down to trying to understand what the exact 
answer is.
    And I have no agenda in this discussion, other than I am 
reacting to a concern that we are going to become LCS-dominant 
in the Pacific, and that was never part of the plan. That was 
not something we agreed to.
    We were always going to have the cruiser capability, the 
carrier, the submarine capability. And when you put all of that 
together, now you can optimally place LCS where it belongs and 
where it fits into the overarching strategy.
    Ms. Hanabusa. Mr. Chairman, may I ask one more question?
    Mr. Berteau--am I saying that correctly?--you know, one of 
the things CSIS has always been in the forefront with has been 
the--and this is, of course, with Michael Green--has been in 
the discussion of what does it mean to have the pivot to Asia-
Pacific.
    We have heard various people tell us that there seems to be 
a lack of clear strategy of what does it mean when we say--when 
the United States says we are pivoting to Asia-Pacific or 
rebalancing. I have even heard recalibration. Whichever word 
you want you can use.
    The question is: Do you see a clear strategy or is it 
something that you feel that we are sort of, you know, kind of 
finding our way around, which doesn't help us as the people who 
are finally going to make the decision as to where the money 
goes and what is going to be there? What is the strategy, if 
you feel that we have one, or if we don't have one, why do you 
think we don't have one?
    Mr. Berteau. Such an easy question to ask.
    Ms. Hanabusa. And my last question. It is all yours.
    Mr. Berteau. I think that there are some sound elements of 
the current strategy that have been articulated and followed 
and, in particular--and I think Dr. Ratner mentioned this in 
his testimony--there is much more going on here than just 
military presence.
    We tend to focus on the military presence side and on the 
elements of this that fall under the purview of the Defense 
Department, and it is clearly substantially more than that.
    I won't pretend that I am tracking what is going on in the 
trade arena and the diplomatic arena, et cetera. It is a bit 
outside of my area. So I look at it from within the Defense 
Department's point of view.
    I think there has been a consistent articulation of what 
constitutes a strategy that guides the theater campaign plan 
that the Pacific Command has in place that allows the 
development of courses of action inside there, and I think 
there is plenty of work that has been done on that.
    What I think remains to be articulated in a public way that 
you and I can read and understand--not a classified document, 
but a public document--is something that allows us to say, if 
you can only do so much of these actions in this campaign plan, 
which ones are the most important and which ones come first. 
That articulation I think still remains to be laid out there.
    As to why it hasn't been put in place, I will tell you, I 
think a big part of the problem is just the fundamental 
budgetary and programmatic uncertainty that pervades the 
defense establishment today and makes it very difficult to 
think beyond where we are right now.
    I mean, you look at this. We are on the eve of the 1st of 
March. We have 7 months left in this fiscal year. For the first 
time, actually, in 3 years, the Defense Department knows what 
it is going to have to spend in that 7 months, but they don't 
know what they are going to have to spend starting on October 
1. Well, we sort of do. We are going to have a continuing 
resolution. But we don't know much beyond October 1, if you 
will.
    That level of uncertainty, even though it is not strategic 
at all, I think permeates the environment in which any kind of 
a strategic thinking comes into play. That is the best 
explanation that I can put forward, I think, that looks there.
    But I think there is one overriding important point that 
has changed dramatically, and Admiral Walsh alluded to this, I 
think, in his response to the very first question or the second 
question, perhaps, that was asked here.
    We inherited a laydown of U.S. forces at the end of World 
War II that essentially was the basis of our Pacific posture, 
or at least after the Korean War, if you will.
    One of the things that Dr. Green and I did when we 
undertook our study 2 years ago was said, ``What if we were 
starting from a clean sheet of paper, I mean, literally, we had 
no basing structure in the Asia-Pacific region? Where would we 
want to be?''
    Well, guess what. We would want to be in Korea because of 
the dynamic there. We would want to be in Japan because of the 
importance of the alliance. We would want to have a good 
physical presence in the first island chain, which we do in 
Okinawa. We would want to have a sound physical presence in the 
second island chain, which we do in Guam.
    The big gap is everything south of there, Southeast Asia on 
around into the Indian Ocean. That is where the gaps were, if 
you will. And I think one of the things that time has precluded 
is we are not going to go build big bases there. We don't have 
the money for it. They don't have the appetite for it. But we 
do have to have the engagement that is coming into play.
    This is both a strategic framework, but a very set of 
tactical decisions day to day at the very small unit level. And 
I think a lot of what I am seeing going on at the Marine Corps 
level, at the Pacific augmentation team level, small groups, 
country by country, location by location, engaging in dispersal 
opportunities at air bases around the region, all fits into 
this pattern. But it is very hard to describe in a strategic 
sense.
    So I am seeing a lot of positive activities, if you will, 
but it is going to take time before we can see how they play 
out in a strategic sense.
    Mr. Forbes. Thank you.
    As we mentioned at the beginning, the importance of this 
hearing is not just for the hearing itself, but for the 
transcript and the record we are making.
    And we promised each of you we would give you just a few 
moments, if you needed it, at the end for anything that perhaps 
you wanted to wrap up with or anything that we left out in 
terms of our questioning.
    So, Dr. Ratner, let's start with you. And we'll work our 
way back. Any closing thoughts that you have that we failed to 
ask or that we mischaracterized?
    Dr. Ratner. Sure. Well, Mr. Chairman, thank you again for 
these hearings. I think this is a real service to U.S.-Asia 
policy. So congratulations. I think it has been a success 
already, and I hope to see more up here on the Hill.
    Let me address the issue of how we should go about building 
our alliance and partnerships, because I guess I would somewhat 
disagree with how--some of the characterizations earlier that 
we're talking about. ``Well, this just should be geared at the 
China threat. These countries are feeling more threatened; and, 
therefore, we should work with them to deal with that threat.''
    I think it is true that countries in the region are feeling 
increasingly insecure because of China's rise, but it is also 
true that they have deep political and economic 
interdependences with China and, whereas U.S. policy can blow 
hot and cold, China is a geographic reality for them that is 
not going away and, as a fundamental rule in the region, with a 
couple exceptions, countries really do not want to have to 
choose between the United States and China.
    So when we think about engaging with allies and partners, 
yes, it should be about enhancing U.S. capability and 
deterrence, interoperability for warfighting. But more 
fundamentally, it has to be about building partnerships and 
having a more politically sustainable relationship, as we have 
said--as you said in your opening and as we have said, as 
official U.S. policy.
    So we should think about how our partnerships can be 
integrated in regional institutions, for instance, how they can 
address non-traditional security threats or other threats that 
are locally important to our partners outside of major power 
war.
    We should think about how to include engagements with 
China, whether it is in multilateral agreements or through our 
relationship with Australia, for instance, the fact we need to 
have a good relationship with China or at least a stable 
relationship with China to deepen our security partnerships 
with countries in the region who, again, don't benefit from a 
highly adversarial relationship between the United States and 
China.
    And, finally, we need an economic component to these 
engagements such that security is not the overriding core or 
pillar of our relationships with these countries.
    It makes it very difficult for a number of countries in the 
region, even allies like Australia and the Philippines and 
Japan, to go to their domestic publics and say, ``Well, our 
relationship with the United States is all about security and, 
in some cases, all about deterring China.'' That is not what 
their publics are looking for out of their relationship with 
the United States or with China.
    So I think we really do need to think about political 
sustainability and think about shaping a regional order rather 
than thinking about it in the terms of building some type of 
anti-China coalition or whatever you would call it that, 
really, most countries in the region will not sign up for.
    Mr. Forbes. Mr. Berteau.
    Mr. Berteau. Mr. Chairman, thank you.
    Ms. Hanabusa's last question actually gave me the 
opportunity to say an awful lot of what I already put in my 
notes. To wrap up here, I would just add two final points.
    One really piggybacks on Admiral Walsh's comment about 
China doesn't behave necessarily in ways that we interpret. 
They are playing by one set of understandings and we are 
playing by another.
    I would note that that is not just true of the United 
States understanding of China. It is true, I believe, of the 
understanding of many other countries in the region of China. 
And they all look at it through a prism, and we need to keep 
that in mind as we go forward.
    We are on an adventure here that there is no cookbook that 
tells us what to do. You know, to behave in such a way that it 
changes the evolution and development of a major power is 
something that is very rare in history that has been done in a 
coherent and peaceful way, if you will.
    And I think the challenges that we have are enormous in 
this regard and it requires this kind of constant discussion 
and dialogue in the open that you have promulgated here that I 
think will be of enormous benefit as we go forward. So I thank 
you for all these hearings.
    Mr. Forbes. Thank you.
    Dr. Mahnken.
    Dr. Mahnken. Thank you, Mr. Chairman.
    And thanks to the committee for this important work that 
you are embarked upon.
    Yeah. Let me just conclude by emphasizing my belief that, 
you know, the United States does need a long-term strategy to 
guide our investments and to help us compete in an increasingly 
challenging environment.
    We need that strategy, first, to be a smart competitor. We 
are not going to, you know, spend ourselves to good strategy. 
We need to be a smart competitor.
    We also need to be able to explain our commitment to the 
Asia-Pacific region to the American people.
    And then, third, we need such a strategy so that we can 
work with our allies and with our friends in the region.
    I think we are blessed with some very powerful allies in 
the region, and I think there are tremendous opportunities 
before us, very exciting opportunities before us, to work with 
our allies in ways that benefit us, benefit our allies, but 
then together disproportionately benefit us as alliances. So we 
need to be alive to those opportunities.
    Now, if we lack a strategy currently, well, partially that 
is because of us, and I talked about that. But, also, it is 
because of our--you know, the other members of the--the other 
states in the region and our competitors.
    We have been talking about China and how best to understand 
China. I think we need to invest in capabilities to help better 
understand China and China as a competitor, because I think it 
is manifestly clear that we don't fully understand what is 
driving the party leadership and the PLA and Chinese actions.
    So we need that as a foundation to develop a long-term 
strategy to guide our investments, guide our actions, explain 
to the American people and work with our allies.
    So thank you again.
    Mr. Forbes. Thank you.
    Admiral, we will give you cleanup.
    Admiral Walsh. Thank you. An observation and then a 
suggestion.
    While I was the Pacific Fleet commander, I traveled with 
Kirk Campbell and a representative of the U.S. Agency for 
International Development and we hopscotched across the Pacific 
to 10 different stops. And in the course of that, we found the 
power of what we were doing as in the representation of a 
whole-of-government sort of approach, at least in the minds of 
the audience.
    We have an opportunity coming up in Hawaii not long from 
now with the Rim of the Pacific Exercise that, if we really do 
think that these are matters of important concern, that I could 
envision a RIMPAC dialogue where you do have Department of 
State representation, where you do have academia that comes out 
of Singapore or out of Malaysia, to engage in a forum where 
there is an honest, open discussion about some of the maritime 
concerns that you have seen play out over the recent few years. 
And I could see China having an opportunity to present itself 
and participate in ways that I think would be very friendly and 
very encouraging.
    It is just a suggestion. But it tells me that the 
traditional sort of approach that is DOD-centric has its 
limitations. And until we invite others under the tent with us 
here and engage in that kind of dialogue, then I don't think we 
are really going to be able to move much beyond where we are 
today.
    Thank you.
    Mr. Forbes. Gentlemen, thank you so much for all your work 
in these areas. They are vitally important to our future.
    We thank you for taking time to be with us today and for 
your help with this committee, and we look forward to 
continuing to be able to utilize your expertise in the future. 
So thank you.
    With that, we are adjourned.
    [Whereupon, at 4:24 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 27, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2014

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 27, 2014

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. What flashpoints in the Asia-Pacific region are of most 
concern, and how does the rebalance address them?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. Provide your assessment of the rebalance to date. What 
are the most significant challenges and your concerns with respect to 
its implementation?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. What is your assessment of U.S. basing in the region? 
Is the U.S. military effectively positioned to respond to contingencies 
in the region? How can its positioning be improved?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. How is the force structure in each of the services 
being affected by the rebalance (e.g., end strength, training and 
readiness, investment and modernization)?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. How critical is forward presence to the rebalance as 
well as readiness of the commands in the theater? In what areas is 
PACOM lacking required forward presence?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. Does the Defense Strategic Guidance and refocus on the 
Asia-Pacific necessitate a change in our preposition strategy, 
including operational stocks?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. Discuss the importance of accessibility in the Asia-
Pacific region, our current accessibility challenges, and how the 
rebalance addresses them?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. What capabilities, research and development (R&D) 
areas, and resources will be required to meet rebalance needs? What are 
our most significant gaps and shortfalls? How is the Department 
prioritizing those, and how have they changed to align with the 
rebalance?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. What are the implications of China's military 
modernization, specifically its power projection, anti-access/area-
denial, counter-space and cyber capabilities? What is being done to 
address these threats?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. What should be the role of the U.S. military in the 
event of a contingency in the East China Sea or the South China Sea?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Forbes. What flashpoints in the Asia-Pacific region are of most 
concern, and how does the rebalance address them?
    Dr. Mahnken. I believe that the following flashpoints should be of 
greatest concern in the Asia-Pacific region: (1) the Taiwan Strait, (2) 
the East China Sea, (3) the South China Sea, and (4) the Korean 
peninsula. (1) I am concerned that despite the rebalance, the military 
balance across the Taiwan Strait continues to shift away from Taiwan 
and toward the PRC. Taiwan's armed forces are increasingly overmatched 
by Chinese military modernization. (2,3) In the East and South China 
seas, China has utilized a number of instruments of statecraft short of 
the use of force to establish a new status quo and coerce Japan into 
recognizing Chinese territorial claims. The United States and its 
allies need to develop a better understanding of these so-called ``grey 
area'' challenges and develop countermeasures to them. (4) The Kim 
regime continues to threaten stability on the Korean peninsula. I 
believe that that threat will remain as long as the Kim regime remains 
in power in P'yongyang, regardless of the rebalance.
    Mr. Forbes. Provide your assessment of the rebalance to date. What 
are the most significant challenges and your concerns with respect to 
its implementation?
    Dr. Mahnken. I believe the rebalance has provided needed attention 
to the growing strategic weight of the Asia-Pacific region. I also feel 
that the commitment to deploy an increasing portion of the U.S. armed 
forces in the region is wise, both given the United States' enduring 
interests in the region as well as the eroding military balance. My 
main concerns are two. First, U.S. forces in the Asia-Pacific region 
represent an increasing slice of a shrinking pie. As a result, unless 
the United States adopts innovative approaches to force posture and 
force structure, it will continue to face a worsening military balance. 
Second, I am concerned that the United States is not exercising 
leadership among its allies in the region. Absent that leadership, U.S. 
allies are becoming increasingly concerned. In abdicating its 
leadership role, the United States is also sacrificing the opportunity 
for deeper collaboration with allies.
    Mr. Forbes. What is your assessment of U.S. basing in the region? 
Is the U.S. military effectively positioned to respond to contingencies 
in the region? How can its positioning be improved?
    Dr. Mahnken. I believe that the United States should harden and 
diversify its bases in the region and augment them with contingency 
operating locations. These should be balanced between bases on 
sovereign U.S. territory, such as Hawaii and Guam, and those on allied 
territory, such as Japan, South Korea, and the Philippines. Bases on 
U.S. territory guarantee access, whereas those on allied territory 
provide extended deterrence and reassurance.
    Mr. Forbes. How is the force structure in each of the services 
being affected by the rebalance (e.g., end strength, training and 
readiness, investment and modernization)?
    Dr. Mahnken. I do not believe that the rebalance has yet 
significantly affected the force structure of the each of the Services. 
A force structure that fully implemented the rebalance would feature a 
greater emphasis on naval and air capabilities; investment in new 
capabilities of particular importance to the theater, including 
unmanned strike, undersea warfare, guided munitions, and electric and 
directed energy weapons; the development of innovative operational 
concepts for projecting power in the face of anti-access/area denial 
threats; training focused on the unique features of the theater; and 
deeper collaboration with U.S. allies. Although the Services are 
undertaking a number of initiatives along these lines, I do not believe 
that they have progressed far enough to affect force structure.
    Mr. Forbes. How critical is forward presence to the rebalance as 
well as readiness of the commands in the theater? In what areas is 
PACOM lacking required forward presence?
    Dr. Mahnken. I believe that U.S. forward presence plays a critical 
role in dissuading aggressors, deterring aggression, and reassuring 
allies and friends. However, presence rests upon a foundation of 
credible warfighting capability. Although the United States maintains 
presence throughout the PACOM area of responsibility, I am concerned 
that as the size of the U.S. armed forces shrink, the credibility of 
U.S. combat power will be called into question. In particular, I am 
concerned that the decreasing size and increasing age of Navy and Air 
Force platforms will undermine deterrence and reassurance.
    Mr. Forbes. Does the Defense Strategic Guidance and refocus on the 
Asia-Pacific necessitate a change in our preposition strategy, 
including operational stocks?
    Dr. Mahnken. I believe that the growth and modernization of Asia-
Pacific militaries means that wars in the region are likely to involve 
increasing expenditure of munitions and other expendables. I also 
believe that the growth and spread of precision-strike systems, 
particularly in the Asia-Pacific region, is ushering in an era of 
longer, costlier wars. As a result, I believe that the United States 
needs to rethink its strategy for acquiring and positioning operational 
stocks.
    As part of this, I believe that the United States should enter into 
discussions with its close allies in the region on how to pool 
operational stocks, to include the acquisition of common munitions and 
shared contingency manufacturing.
    Mr. Forbes. Discuss the importance of accessibility in the Asia-
Pacific region, our current accessibility challenges, and how the 
rebalance addresses them?
    Dr. Mahnken. Forward-based forces play an important role in U.S. 
strategy in the Asia-Pacific region. Access to the region is thus 
crucial to U.S. credibility. Forward basing on U.S. and foreign 
territory play complementary roles. Bases on sovereign U.S. territory, 
such as Hawaii and Guam provide assured access. By contrast, those on 
allied territory, such as Japan, South Korea, and the Philippines 
provide extended deterrence and reassurance. Although the rebalance has 
seen increased access to allied and friendly territory in the region, 
including Australia, the Philippines, and Singapore, I believe that 
more can and should be done. In particular, I believe there are 
opportunities for enhanced access to naval and air facilities in 
Australia and the Philippines.
    Mr. Forbes. What capabilities, research and development (R&D) 
areas, and resources will be required to meet rebalance needs? What are 
our most significant gaps and shortfalls? How is the Department 
prioritizing those, and how have they changed to align with the 
rebalance?
    Dr. Mahnken. I believe the United States faces shortfalls in the 
following areas. Unmanned Strike Systems: The United States requires 
greater investment in stealthy unmanned strike systems that can be 
launched well outside the growing range of increasingly precise long-
range missiles and other so-called anti-access, area-denial (A2AD) 
systems. Undersea Warfare: The United States has built and maintained a 
comparative advantage in undersea warfare over the course of decades. I 
am concerned, however, that the United States is not adequately 
resourcing U.S. undersea capabilities I believe that the United States 
should commit itself to purchasing 2 Virginia-class SSNs per year, 
funding and procuring the Virginia Payload Module (VPM) and exploring 
the Towed Payload Module (TPM). The United States should also place 
additional emphasis on developing unmanned underwater vehicles (UUVs) 
that can complement current U.S. attack submarines. Guided Munitions: 
Current U.S. anti-ship and land-attack cruise missile designs date to 
the 1970s; the U.S. military urgently requires a new long-range anti-
ship cruise missile to replace the Harpoon and a new land attack cruise 
missile to replace the Tomahawk. The United States should also increase 
its investment in research into autonomous systems, which offer the 
ability to operate in the face of enemy attempts to interfere with 
sensors and communication links. Electric & Directed Energy Weapons: 
U.S. forces are increasingly at risk from large salvos of guided 
rockets, artillery, missiles and mortars. Electric weapons, such as 
electromagnetic rail guns and high energy lasers, have the potential to 
possess both high rates of fire and very low cost per shot, making them 
probable game-changers for U.S. defense strategy if successfully 
developed and fielded. These systems deserve greater funding.
    Mr. Forbes. What are the implications of China's military 
modernization, specifically its power projection, anti-access/area-
denial, counter-space and cyber capabilities? What is being done to 
address these threats?
    Dr. Mahnken. Chinese military modernization threatens not only to 
deny the United States access to areas of vital national interest, but 
also to erode the alliances that have served as the foundation of 
regional stability for over half a century. Three aspects are of 
particular concern: (1) Its growing ability to destroy fixed targets in 
the region (including on our allies' home territory) could weaken 
deterrence and reassurance. (2) Its growing ability to target U.S. 
power projection forces, including U.S. carrier strike groups, could 
not only deter the United States from intervening in a crisis or 
conflict in the region, but also degrade U.S. warfighting capabilities. 
(3) Its nuclear modernization, including the deployment of increasing 
numbers of nuclear ballistic missiles, could potentially decouple 
allies from the American extended nuclear deterrent by reducing the 
credibility of U.S. nuclear retaliatory threats. I believe that more 
needs to be done to address these threats. This includes investment in 
new capabilities, including unmanned strike, undersea warfare, guided 
munitions, and electric and directed energy weapons; the development of 
innovative operational concepts for the use of U.S. forces; deeper 
collaboration with U.S. allies; and measures to bolster nuclear 
deterrence.
    Mr. Forbes. What should be the role of the U.S. military in the 
event of a contingency in the East China Sea or the South China Sea?
    Dr. Mahnken. Much would obviously depend upon the circumstances. 
However, it is worth remembering that the United States has, for the 
better part of a century, served as a guarantor of stability and order 
in the Asia-Pacific region. As a result, in the event of a contingency 
in the East China Sea or the South China Sea, I believe that the United 
States should act to safeguard that order.
    Mr. Forbes. What flashpoints in the Asia-Pacific region are of most 
concern, and how does the rebalance address them?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. Provide your assessment of the rebalance to date. What 
are the most significant challenges and your concerns with respect to 
its implementation?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. What is your assessment of U.S. basing in the region? 
Is the U.S. military effectively positioned to respond to contingencies 
in the region? How can its positioning be improved?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. How is the force structure in each of the services 
being affected by the rebalance (e.g., end strength, training and 
readiness, investment and modernization)?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. How critical is forward presence to the rebalance as 
well as readiness of the commands in the theater? In what areas is 
PACOM lacking required forward presence?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. Does the Defense Strategic Guidance and refocus on the 
Asia-Pacific necessitate a change in our preposition strategy, 
including operational stocks?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. Discuss the importance of accessibility in the Asia-
Pacific region, our current accessibility challenges, and how the 
rebalance addresses them?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. What capabilities, research and development (R&D) 
areas, and resources will be required to meet rebalance needs? What are 
our most significant gaps and shortfalls? How is the Department 
prioritizing those, and how have they changed to align with the 
rebalance?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. What are the implications of China's military 
modernization, specifically its power projection, anti-access/area-
denial, counter-space and cyber capabilities? What is being done to 
address these threats?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. What should be the role of the U.S. military in the 
event of a contingency in the East China Sea or the South China Sea?
    Mr. Berteau. [The information was not available at the time of 
printing.]
    Mr. Forbes. What flashpoints in the Asia-Pacific region are of most 
concern, and how does the rebalance address them?
    Dr. Ratner. The most concerning flashpoints in the Asia Pacific are 
the Korean Peninsula, maritime/territorial disputes in the East and 
South China Sea, and the broader military competition with China. The 
rebalance to Asia seeks to address all of these issues through its 
multifaceted approach that includes:
    --  Strengthening traditional alliances;
    --  Building closer ties with emerging partners;
    --  Deepening political and institutional relations with China;
    --  Engaging the region's multilateral institutions;
    --  Diversifying the U.S. military presence in Asia; and
    --  Reinforcing U.S. economic leadership in the region.
    Mr. Forbes. Provide your assessment of the rebalance to date. What 
are the most significant challenges and your concerns with respect to 
its implementation?
    Dr. Ratner. The rebalancing policy has made considerable 
achievements over the last five years. In nearly every dimension of the 
policy, the United States has made significant and tangible advances. 
There is little evidence to support skeptics who argue that the policy 
is not real or is all rhetoric.
    Sustaining and deepening the rebalancing will require continued 
political and financial commitment from the White House and Congress. 
Part of the task ahead is for U.S. political leaders to make the case 
to the American people about the importance of Asia's future for U.S. 
economic and security interests. The administration and Congress will 
also have to keep ensuring that the non-military elements of the policy 
receive sufficient attention, including for diplomacy, economic 
assistance, and trade.
    Mr. Forbes. What is your assessment of U.S. basing in the region? 
Is the U.S. military effectively positioned to respond to contingencies 
in the region? How can its positioning be improved?
    Dr. Ratner. The United States should continue seeking a more 
geographically distributed, operationally resilient and political 
sustainable military presence in the region. Presence and access 
agreements in Australia, Singapore and the Philippines are extremely 
important in this regard in terms of demonstrating U.S. commitment to 
the region, providing new operational and strategic advantages, and 
creating greater opportunities for building partner capacity and 
responding to regional crises.
    Mr. Forbes. How is the force structure in each of the services 
being affected by the rebalance (e.g., end strength, training and 
readiness, investment and modernization)?
    Dr. Ratner. The question is beyond the witness' scope of 
experience.
    Mr. Forbes. How critical is forward presence to the rebalance as 
well as readiness of the commands in the theater? In what areas is 
PACOM lacking required forward presence?
    Dr. Ratner. Forward presence and access agreements are extremely 
important in terms of demonstrating U.S. commitment to the region, 
providing new operational and strategic advantages, and creating 
greater opportunities for building partner capacity and responding to 
regional crises.
    Mr. Forbes. Does the Defense Strategic Guidance and refocus on the 
Asia-Pacific necessitate a change in our preposition strategy, 
including operational stocks?
    Dr. Ratner. The question is beyond the witness' scope of 
experience.
    Mr. Forbes. Discuss the importance of accessibility in the Asia-
Pacific region, our current accessibility challenges, and how the 
rebalance addresses them?
    Dr. Ratner. See answers above.
    Mr. Forbes. What capabilities, research and development (R&D) 
areas, and resources will be required to meet rebalance needs? What are 
our most significant gaps and shortfalls? How is the Department 
prioritizing those, and how have they changed to align with the 
rebalance?
    Dr. Ratner. The question is beyond the witness' scope of 
experience.
    Mr. Forbes. What are the implications of China's military 
modernization, specifically its power projection, anti-access/area-
denial, counter-space and cyber capabilities? What is being done to 
address these threats?
    Dr. Ratner. The question is beyond the witness' scope of 
experience.
    Mr. Forbes. What should be the role of the U.S. military in the 
event of a contingency in the East China Sea or the South China Sea?
    Dr. Ratner. The precise role of the United States military will, of 
course, depend on the nature of the contingency. Nevertheless, the 
United States could have a key role to play in terminating any 
conflict, either through the use of force or deterrent threats. 
Depending on the circumstances, failure to play that role could have 
significant negative effects on U.S. credibility, leadership and 
interests in Asia.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Looking at the probability that future environments 
in the Asia-Pacific will be denied, are we making the right investments 
to ensure the adequacy and resiliency of our ISR capabilities?
    Admiral Walsh. [The information was not available at the time of 
printing.]
    Mr. Langevin. In your views, have we placed appropriate strategic 
emphasis on matters other than high-end warfare in the Asia-Pacific, in 
particular on contesting the persistent low-level competition that 
seems endemic to the region?
    Dr. Mahnken. The United States faces a number of challenges in the 
Asia-Pacific region. Of these, the most consequential would be a great-
power conflict. It is not, however, the only contingency of interest. 
In particular, I am concerned about China's so-called ``gray-area'' 
challenges to the status quo in the region. China has utilized a number 
of instruments of statecraft short of the use of force to establish a 
new status quo and coerce regional states into recognizing Chinese 
territorial claims. The United States and its allies need to develop a 
better understanding of this strategy and develop countermeasures to 
it.

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
